La
I

C@OCKLE

Le ga 1 Brie fs E-Mail Address:

contact@cocklelegalbriefs.com

2311 Douglas Street
Omaha, Nebraska 68102-1214 Est. 1923
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-123

SHARONELL FULTON, ET AL.,
Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL.,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 20th day of August, 2020, send out
from Omaha, NE 3 package(s) containing 3 copies of the BRIEF FOR AMICI CURIAE PRESIDENT OF THE HOUSE OF
DEPUTIES OF THE EPISCOPAL CHURCH; THE RABBINICAL ASSEMBLY; UNITED SYNAGOGUE OF
CONSERVATIVE JUDAISM; CENTRAL CONFERENCE OF AMERICAN RABBIS; CENTRAL ATLANTIC, PENN
CENTRAL, PENN NORTHEAST, PENNSYLVANIA SOUTHEAST, AND PENN WEST CONFERENCES OF THE
UNITED CHURCH OF CHRIST; RECONSTRUCTING JUDAISM; RECONSTRUCTIONIST RABBINICAL
ASSOCIATION; UNION FOR REFORM JUDAISM; UNITARIAN UNIVERSALIST ASSOCIATION; COVENANT
NETWORK OF PRESBYTERIANS; FRIENDS FOR LGBTQ CONCERNS; MEN OF REFORM JUDAISM; METHODIST
FEDERATION FOR SOCIAL ACTION; MORE LIGHT PRESBYTERIANS; MUSLIMS FOR PROGRESSIVE VALUES;
RECONCILING MINISTRIES NETWORK; WOMEN OF REFORM JUDAISM; AND INDIVIDUAL FAITH LEADERS
IN SUPPORT OF RESPONDENTS AND AFFIRMANCE in the above entitled case. All parties required to be served have
been served by third-party commercial carrier for delivery within 3 calendar days. Packages were plainly addressed to the
following:

SEE ATTACHED

To be filed for:

JEFFREY S. TRACHTMAN
Counsel of Record

NORMAN C. SIMON
TOBIAS B. JACOBY
JASON M. MOFF
BENJAMIN NEUHAUS
KRAMER LEVIN NAFTALIS & FRANKEL LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9175
jtrachtman@kramerlevin.com
Counsel for Amici Curiae

Subscribed and sworn to before me this 20th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

erren| Kense 0. Boos Ondeaw hl. Obl

Notary Public Affiant 39919

 

My Comm. Exp. September 5, 2023,

 
 

 

Attorneys for Petitioners

Mark Leonard Rienzi
Counsel of Record

The Becket Fund for Religious Liberty (202) 955-0095
1200 New Hampshire Ave., NW

Suite 700

Washington, DC 20036

mrienzi@becketlaw.org

Party name: Sharonell Fulton, et al.

 

 

Attorneys for Respondents

Leslie Cooper
Counsel of Record

American Civil Liberties Union (212) 519-7815
125 Broad Street
New York, NY 10004

lcooper@aclu.org

Party name: Intervenor Support Center for Child Advocates and Philadelphia Family Pride

Neal Kumar Katyal
Counsel of Record

Hogan Lovells US LLP (202) 637-5528
555 Thirteenth St., N.W.
Washington, DC 20004

neal.katyal@hoganlovells.com

Party name: City of Philadelphia, Department of Human Services for the City of Philadelphia,
Philadelphia Commission on Human Relations

 

 
